 Department of Health and Human Services

            OFFICE
    INSPECTOR GENERAL





THE EFFECTS OF HOSPITAL MERGERS

 ON THE AVAilABiliTY OF SERVICES





             f.RV'CESO




                              Richard P. Kusserow
                         l.   INSPECTOR GENERAL
            /("d3a
                                FEBRUARY 1991
           ", '"               ''
 Department of Health and Human Services

                   OFFICE
    INSPECTOR GENERAL





THE EFFECTS OF HOSPITAL MERGERS

 ON THE AVAILABILITY OF SERVICES





                   f.RV'CES.
           ~t-


                                    Richard P. Kusserow
                               E. INSPECfOR GENERAL
                 ~/("d3a
                                      OEI- 04- 90- 02400
                    EXECUTIVE SUMMARY

PURPOSE

This repoI1 describes the effects on the availability of hospital services when hospitals merge.


BACKGROUND

Changes in Medicare hospital reimbursement and other " belt- tightening " actions by public and
private payers have forced hospitals to operate more effciently.  Among the cost-cutting
measures considered by hospitals are resource-sharng aIangements and consolidation. Some
hospitals conclude that merger is the best course to remain viable.

The U. S.  Department of Justice (DOJ) and the Federal Trade Commission (FfC), however
maintain that mergers may, in some situations, reduce he lthy competition. It is their
responsibility to protect consumers from anti-competitive actions which may result in higher
prices and restrcted choices. The DOJ prepared the Federal Merger Guidelines (" Guidelines
in 1968. The DOJ uses the Guidelines to determine which proposed mergers may violate
antitrust law. The FTC uses the Guidelines and other criteria for their merger analyses. The
Guidelines do not mention the hospital industr specifically, nor issues of access to care.

Some members of the hospital industry are deeply concerned about DOJ' s and FfC' s increased
interest in and challenge to hospital mergers in the past few years. Recent antitrust suits have
caused a great deal of consternation in the industr and have complicated the decision-making
process for hospitals considering merger. On the other hand, figures from the American Hospital-
Association indicate that 40 to 60 mergers (the term inchides acquisitions) have occurred
annually in the past decade. The DOJ and FfC have brought fewer than 10 antitrust cases
against hospitals during that time.

In November 1989, Secretar Sullvan appointed a task force to examine hospital merger issues
and asked the Inspector General to conduct ceI1ain studies to SUPPOI1 the work of the task force.
This repoI1 assesses the effects of hospital mergers on the availabilty of hospital services.


FINDINGS

This assessment of eight hospital mergers found that:

      In all cases, one or both of the merging hospitals suffered from declining occupancy,
      lagging revenues, and/or rising costs. The mergers addressed these problems; all of the
      remaining hospitals are reported to be stronger as a result of merger.

      None of these mergers drew community opposition , and none were challenged by antitrust
      enforcement agencies. . 

     Of the 16 merging hospitals, four closed (ceased to provide general acute care) after the
     merger.

     No negative effects on the availabilty of hospital services resulted from any of the
     mergers. In all eight merger cases, the availabilty of hospital services was maintained or
     improved.


RECOMMENDATIONS

This repOI1 contains no recommendations. However, the HHS Hospital Merger Task Force may
make recommendations based on these and other studies.
                       . .. .. .. .    ... ..... .......... ............            . . . . . . ....................
                                                            . . . . . . . . . . . . ......        . . . . . . . ... . . . . . . ..
                                  ... .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. ........................................
                                                                                          . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. . . . . . . . . . . . . . . .
                                                                                                                                                                                 ' . . . . .




                                      TABLE OF CONTENTS

                                                                                                                                                                                      Page
EXECUTIVE SUMMARY

INTRODUCTION                                                                                                                            . . . . . . . . . . . . . . . . . . . . 1





FINDINGS.                                                                                                            ...........................5

            What Were the Hospitals Like?                                                                                                                     ............s

            Were the Mergers Challenged?

            Why Did the Hospitals Merge?

            What Were the Results of the Mergers? ................................. 7


            Did the Mergers Affect the Availabilty of Hospital Services? ...............



CONCLUSION
                                                       . . . . . . . . . . . . . . . . . . . . . . o

AGENCY COMMENTS

ENDNOTES.
                                                                                                     '.




                             INTRODUCTION

PURPOSE

This repoI1 describes the effects on the availabilty of hospital services when hospitals merge. Its
findings are based on an assessment of eight hospital mergers that occurred in 1987.


BACKGROUND

Observers of the health care industry note the dramatic changes in that industry in recent years,
including an increase in the number of mergers. One independent surveyor has forecast that the
number of hosRitals in multi- hospital systems wil increase from about 2,400 in 1986 to over
3,400 by 1995.



Changes in Medicare hospital reimbursement and other " belt-tightening " actions by public and
private payers have forced hospitals to operate more effciently.  Among the cost-cutting
measures considered by hospitals are resource-sharng aIangements and consolidation. Some
hospitals conclude that merger is the best course to remain viable.

The U. S. Department of Justice (DOJ) and the Federal Trade Commission (FfC), however
maintain that mergers may, in some situations, reduce healthy competition. It is their
responsibilty to protect consumers from anti-competitive actions which may result in higher
prices and restrcted choices. The DOJ prepared the Federal Merger Guidelines (" Guidelines
in 1968. The DOJ uses the Guidelines to detennine which proposed mergers may violate
antitrst law. The FTC uses the Guidelines and other criteria for their merger analyses. The
criteria in the Guidelines take into account the geographic market, the product market, the
market shars of each merging entity, the effects of competition on prices, imminent financial
failure , and effciencies to be gained through merger. The Guidelines do not mention the
hospital industr specifically, nor issues of access to care.

Some members of the hospital industr    are deeply   concerned about   DOl's   and FfC' s increased
interest in and challenges to hospital mergers in the past few years. Recent antitrst   suits have
caused a great deal of consternation in the industr and have complicated the decision-making
process for hospitals considering merger. 2 On the other hand, figures from the American
Hospital Association indicate. that 40 to 60 mergers (the term includes acquisitions) have
occurred annually in the past decade. The DOJ and FfC have brought fewer than 10 antitrust
cases against hospitals during that time.

In November 1989, Secretar Sullvan appointed a task force to examine hospital merger issues
and asked the Inspector General to conduct certain studies to SUPPOI1 the work of the task force.
This repoI1 assesses the effects of hospital mergers on the availability of hospital services.
A companion repoI1 entitled " The Effects of Hospital Mergers on the Availabilty of Services: A
Case Study of Eight Hospita Mergers " (OEI- 04-91- 00500) was issued at the same time as this
repoI1. That document describes, case- by-case, each of the hospital mergers in the study sample.


SCOPE

The study examined eight cases of hospital merger that occurred during 1987.

For purposes of this study, the term   merger     includes acquisition. A    hospital is defined as a
facility that provides general, shOI1-term      acute medical and surgical    inpati nt services.


METHODOLOGY

In selecting the eight mergers for the case studies, we began with the American Hospital
Association s (AHA) list of 1987 mergers. The AH list contained 20 mergers that met the study
criteria. From this list we identified:
         rura general acute care hospital   mergers where both hospitals were located in the same
         county, and

         urban general acute care hospital mergers where both hospitals were located in the same.
         Metropolitan Statistical Area (MSA). 

We selected four mergers from each group.

We conducted on-site visits to each community in the eight case studies. The study team
obtained informatipn from hospital admistrators and staff, hospital board members, business
leaders, local physicians, other local health care providers, local public officials, concerned
citizens, State hospital associations , and State health planning agencies.

This study examned the pre-merger versus the post-merger availabilty of hospital and related
health care services. To ascenan the effect of the merger on avaiabilty, the pre-merger services
offered by both merger parers were compard to the services stil offere by the post-merger
facility. If a service was deleted as a result of the merger, the study team asceI1ained the
availability of that service from another provider, and the distance to that provider.

We did not analyze the broader and more complex issue of access to care that would have
required examination of a number of factors beyond the scope of our review, such as: the
availability or adequacy of health insurance coverage; patient and physician preferences to use a
particular hospital; and the availability of related health care services in the area served by a
hospital.
SAMPLE

The following eight hospital mergers were included in the study:



MERGER RESULT                                       MERGING HOSPITALS

Ouumwa Regional Health Center                       Ottumwa Regional Health Center
Ouumwa, IA
                                         Ouumwa, IA


                                                    St. Joseph Health andRehabilitation Center
                                                    Ottumwa, IA

Newton Medical Center                               Axtell Christian Hospital
Newton, KS                                          Newton , KS

                                                    Bethel Deaconess Hospital
                                                    Newton , KS

Mercy Hospitals and Health Services of Detroit      Samartan Health Center
Detroit, MI                                         Detioit, MI

                                                    Mount Carel Mercy Hospital
                                                    Detroit, MI

Trinity Lutheran Hospital                           Trinity Lutheran Hospital
Kansas City, MO                                     Kansas City, MO

                                                    St. Mar s Hospital
                                                    Kansas City, MO

St. Francis MeaicaJ Center                          St. Fracis Medcal Center
Grand Island, NE                                    Grand Island, NE

                                                    Grand Island Memorial Hospital
                                                    Grand Island, NE

Staten Island Hospital                              Staten Island Hospital
Staten Island, NY                                   Staten Island, NY

                                                    Richmond Memorial Hospital and Health Center
                                                    Staten Island, NY
SAMPLE coot.

MERGER RESULT                            MERGING HOSPITALS

The Allentown Hospital-                  Allentown Hospital
Lehigh Valley Hospital Center            Allentown , PA
Allentown , PA
                                         Lehigh Valley Hospital Center
                                         Allentown, PA

Methodist Hospital of Middle Tennessee   Methodist Hospital of Middle Tennessee
Winchester, TN                           Winchester, TN

                                         Emerald- Hodgson Hospital
                                         Sewanee, TN
                                                                             .'




                                     FINDINGS

This inspection found that among the eight 1987 hospital mergers studied:

      In all cases, one or both of the merging hospitals suffered from declining occupancy,
      lagging revenues, and/or rising costs. The mergers addressed these problems; all of the
      remaining hospitals are repoI1ed to be stronger as a result of merger.

      None of these mergers drew community opposition , and none were challenged by antitrust
      enforcement agencies. 

      Of the 16 merging hospitals, four closed (ceased to provide general acute care) after the
      merger.

      No negative effects on the availabilty of hospital services resulted from any of the
      mergers. In all eight merger cases, the availabilty of services was maintained or improved.


WHAT WERE THE HOSPITALS LIKE?

All of the 16 hospitals involved in these mergers were not- for- profit. Each hospital had its own
administration and independent board. As a result of the mergers, the eight hospitals remaining
each has an independent administration and board.

The eight hospitals operate at 12 acute care facilties: four of the merged hospitals maintain acute
care services at two locations; the other four hospitals closed one of the locations as an acute care
facilty.

The hospitals, prior to the merger, vared ' in size from 32 beds to 470 beds. The average size of



beds.
the 16 hospitals was 206 beds.

After merger, the eight remaining hospitals var in size from 72 beds to 803 beds, averaging 365



WERE THE MERGERS CHALLENGED?

No challenge was presented to any of the mergers by any antitrust enforcement agency. In
Ottumwa, Iowa the Federal Trade Commission did informally inquire into the proposed merger
but did not challenge it.

Further, there were no organized efforts within the hospitals or from the communities to prevent
any of the mergers.
WHY DID THE HOSPITALS MERGE?

In all of the cases, respondents said the decision to merge was prompted by problems within the
hospitals. These problems vared widely in their severity and ultimate consequences, according
to respondents. For example:

      Emerald- Hodgson Hospital in Sewanee, Tennessee was facing ceI1ain closure if it had not
      merged. Its closure would have deprived the Grundy County residents of a convenient and
      easily-accessible source of primar health car.

      In Newton , Kansas, continued competition between the two hospitals resulted in
      duplicative services and equipment. Continued competition would have drven both into
      financial failure, leaving the town without a hospital.

      In Allentown , Pennsylvania, the merging hospitals wanted to improve their position
      funher by reducing overhead expenses.


The factors cited by respondents which prompted decisions to merge were similar to the factors
                                                                       4 Those studies found
found by the Inspector General in previous studies of hospital closure.

declining occupancy, lagging revenues and/or rising costs weakened hospitas to the extent that

they had no choice but to merge or close.


In this study, the factors cited are:

Declining Occupancy

      Medical advances and new technology have allowed some procedures that formerly
      required hospitalization to be performed on an outpatient basis.

      Lengths of   stay have also shoI1ened.


      Demogrphic changes have reduced admssions to certn services. For example, the
      famile&w-ho were formerly served by St. Mar s Hospital in Kansas City, Missouri have
      migrated to the suburbs. The elderly population remaiing in the area did not require
      obstetrcal services offered by the hospital.


Lagging Revenues

      Insurers, in effoI1s to better control their costs, are limiting reimbursement.

      Economic changes in the community have increased the pOI1ion        of indigent   and
      under- insured patients.

Rising Costs



       New medical technology is a major capital expense, especially when hospitals must
      finance duplicate equipment to compete with each 9ther.
                                                                                                         - ..




         Labor costs are increasing and competition for staff, especially Registered Nurses and
         specialists, is keen.

         Liabilty insurance costs, especially in the tr-county area of Detroit , Michigan , have risen
         significantly.


WHAT WERE THE RESULTS OF THE MERGERS?

Respondents at all of the hospitas said the mergers made the hospitals stronger institutions and
provided benefits. Some examples of the benefits specifically identified by respondents are:

         The post-merger Allentown Hospital- Lehigh Valley Hospital Center , now the largest
         hospital in Pennsylvania, was able to recruit nationally':prominent heaI1 and psychiatric
         specialists and retain staff physicians.

         In Ottumwa, Iowa, Ottumwa Regional Health Center was able to acquire more
         sophisticated equipment: a lithotrpter and a magnetic resonance imager (MRI).

         In the Emerald- Hodgson Hospital in Sewanee, Tennessee, the post-merger hospital
         provided job security and employee benefits which had not been provided by the
         pre-merger management firm.

         By consolidating some administrative and management functions, Mercy Hospitals and.
         Health Services of Detroit eliminated management positions and reduced overhead
         expenses.

         The merger in Newton , Kansas ended the " medical ars race " which resulted from
         competition between the hospitals: Costly duplicafion of technology and staff was no
         longer necessar.

         In Staten Island, New York, the " overfowing " hospital was able to better utilze available
         space by1ansferrng some services to its " underused" merger panner.

         The hospitals in Grand Island, Nebraska and Ottumwa, Iowa were able to insure their
         Regional Referral Center status by halting declining admissions.

However, for one hospital the strength gained from the 1987 merger was not long- lived. For
another, the oppoI1unity for additional economies was a motivation to merge again several years
later.

         Mercy Hospitals and Health Services of Detroit    the merger resulting from combining
         Mt. Carel Mercy Hospital and Samartan Health Center - lost approximately $28
         milion in fiscal year 1989. Worsening conditions compelled the corporate parent to
          demerge " them and to enter into new arangements.
      As of July 1 ,1990, Mt. Carel Mercy Hospital merged under a letter of intent with another
      hospital , agreeing to consolidate medical staffs and employees. Mt. Carel wil
      purchased by the other hospital's parent organization on April 1, 1991.

      Samartan Health Center, the other hospita in the 1987 Detroit merger, entered into ajoint
      venture agreement. As of July 1 , 1990, another hospita system wil manage Samartan for
      the next five years. The maaging system wil provide " financial SUPPOI1" in return for the
      use of Samartan Health Center and other health care facilties owned by Samartan
      parent corporation.



                                                                      nto a new merger
      Trinity Lutheran Hospital in Kansas City, Missouri has also entered 


      aIangement. Trinity and                                                   services and
                                                another acute care hospita wil share administrative


      both hospitals. 

      personnel. This aIangement is intended to accommodate peaks and valleys in activity at



DID THE MERGERS AFFECT THE AVAILABILITY OF HOSPITAL SERVICES?

Although four of the facilties closed after the merger, none of the mergers had a negative effect
on the availability- of hospital services. In fact, services have been added at most of the hospitals
since the merger. For example, as a result of the merger:

      In Grand Island, Nebraska, a skilled nursing facility was opened and outpatient services
      were expanded, including radiation therapy, radioactive implants, hemodialysis, and
      cardiac catheterization.

      In Newton , Kansas, the newborn nursery has been upgraded from a Level I (well baby)


      times a week.
      facilty to a Level II (intermedate care) facilty. An " in- house " computed tomogrphic.
      (CT) scanner has replaced the mobile scanner which visited Newton Medcal Center three


      In Staten Island, New York, psychiatrc emergency services, an MRI , a hospice, and
      cardiac catheterization services were added. A ski ed nursing facility was also opened.

      In the case of the merger which created Methodst Hospital of Middle Tennessee, the
      availabilty of services and access to those services for the elderly poor was dramatically
      improved. The previously-troubled Emerald- Hodgson Hospital located in Sewanee
      opened a skilled nursing facilty and implemented a free transporttion system for the
      elderly poor in Grundy County. The system provides better access not only to
      Emerald- Hodgson Hospita, but also to its merger parer 13 miles away in Winchester.
      addition to free transpoI1ation , a toll- free telephone line to Sewanee was installed for the
      use of Grundy County residents.

Only two of the eight merged hospitals deleted a service as a direct result of the merger:

      Trinity Lutheran Hospital in Kansas City, Missouri elected not to offer obstetrcal services
      after the merger with St. Mary s Hospital. Trinity L theran had not offered obstetrcal
      services for at least a decade prior to the merger because of local demographic changes and
      the fact that hospitals nearby stil offered obstetrcal care.

      The area served by Trinity Lutheran Hospital, " midtown " had become predominantly
      elderly. Statistics from the AHA on the number of biI1hs and bassinets for the period
      preceding the merger corroborated the claims of the Kansas City respondents that births
      were declining. Obstetrcal services are still available from other hospitals nearby,
      including Truman Medical Center, only five blocks away, and from Menorah Medical
      Center, approximately 2 to 3 miles away.

      Post-merger data on the average daily census at Trinity Lutheran Hospital and
      Medicare/Medicaid utilization figures all strongly indicated that the majority of St. Mar
      non-obstetrcal patients were, in fact, using Triity   Lutheran Hospitalafter   St. Mar
      closed as a general acute care facilty.



      miles away.
      Due to religious affiiations in the Grand Island, Nebraska merger, elective tubal ligations
      were discontinued. That service can now be obtained from a hospital approximately 20


In four of the eight mergers in the study sample, one of the hospitals closed as a general acute
care facility. The additional distance that patients must travel due to the closure is insignificant
and appears to have had no impact on the availability of hospital services. The distance to the
remaining facilty in the four cases ranges from 1 block to approximately 1.5 miles.

In three of the four cases where one of the hospitals closed, the buildings are now used for other
services:

      In Kansas City, Missouri, the building houses both inpatient and outpatient psychiatricand
      alcohol/chemical dependency services and some administrative offices.

      In Ottumwa, Iowa, the building is used for outpatient care, home health care, rehabiltation
      servic~     office space.

      In Grad Island, Nebraska, the building houses an extensive range of outpatient services, a
      skilled nursing facility, offices, meeting rooms and a child daycare center. 




CONCLUSION

In all eight cases of the mergers studied here, even when -a hospital closed, the availability of
services was maintained or improved.


RECOMMENDATIONS

This repoI1 contains no recommendations. However, the HHS Hospital Merger Task Force may
make recommendations based on these and other studies. 

                      AGENCY COMMENTS

The draft repoI1 entitled " The Effects of Hospita Mergers on Access to Care " was submitted for
comment to the appropriate Operating Divisions within HHS and the Secretar s Task Force on
Hospital Merger. We received wrtten comments on the draft report from the Assistant Secretary
for Planning and Evaluation and verbal comments from members of the Secretay s Task Force
on Hospital Merger. Both remarked that the focus of the study is availability of services, not the
broader and more complex issue of access to care. We agree. An analysis of the many issues
relating to access to care is beyond the scope of this study. We, therefore hanged the name of
the repoI1 to reflect more clearly its narower focus.
                               ENDNOTES

Edward A. Grant, CPA and Edward J. Giniat, CPA. " Evaluating Mergers and Acquisitions
with a Purchase Investigation. Healthcare Financial Management.  April 1988.


For an overview of concerns in the hospital industr see Marbeth Burke. " Mixed Signals
from Government Have Chiling Effect on Mergers. Hospitals.         June 5, 1990. See also
 HHS Neutral on Hospital Antitrst?"   Health Pol cy Week.      Februar 12 , 1990 and Tinker
Ready. " Court Axes Merger of Two Non- Profits.    HealthWeek.        rch 6, 1989.


Merit C. Kimball. " Wil HHS Advise    Justice, FfC on Hospital Antitrust?"   HealthWeek.
Februar 26, 1990.

Offce of Inspector General, Department of Health and Human Services. " Hospital
Closure: 1987, " OAI- 04- 89- 00740, May 1989 and "Hospital Closures: 1988,
OEI- 04- 89- 01810,   April 1990.
